         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Department of Energy's Solid-
State Lighting Program




OAS-RA-L-13-03                       February 2013
                                 Department of Energy
                                    Washington, DC 20585

                                       February 28, 2013


MEMORANDUM FOR THE DIRECTOR, NATIONAL ENERGY TECHNOLOGY
               LABORATORY




FROM:                    Jack Rouch, Director
                         Central Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Solid-State Lighting Program"

BACKGROUND

The Department of Energy's (Department) Office of Energy Efficiency and Renewable Energy
established the Solid-State Lighting Program to advance the development and market
introduction of energy-efficient white-light sources for general illumination. Since 2003, the
Department has cooperated with industry partners to invest in research and development of solid-
state lighting – including both light emitting-diodes (LED) and organic light emitting-diodes
(OLED) technologies. The American Recovery and Reinvestment Act of 2009 appropriated
more than $41 million to accelerate solid-state lighting research and development and jumpstart
the manufacturing research and development initiative. Through competitive solicitations, the
Department awarded financial assistance instruments to various recipients such as industry
partners, universities and national laboratories each year since the program's inception.

At the time of our review, the Department had awarded 111 cooperative agreements since 2004
with a total value of over $168 million in Federal funding. These financial assistance awards
were managed by the National Energy Technology Laboratory. Due to the significant
investment and the importance of developing affordable and energy efficient next-generation
lighting solutions, we initiated this audit to determine whether the Department effectively and
efficiently managed the Solid-State Lighting Program.

CONCLUSIONS AND OBSERVATIONS

Our review determined that the Department had controls in place, in most instances, to
effectively and efficiently manage the Solid-State Lighting Program. In particular, the
Department had implemented planning and monitoring controls to ensure that selected financial
assistance awards were competed in accordance with policies and procedures, implemented a
process for evaluating recipient accounting control systems and monitoring corrective actions,
and established a system to evaluate and annually assess ongoing projects. Our review
identified certain actions, through the application of lessons learned, that could improve the
Department's management of the Solid-State Lighting Program. Specifically, we noted that the
Department could enhance program operations by:

   •   Ensuring recipients have effective accounting controls and financial systems in place to
       adequately segregate and accumulate costs; and,

   •   Tracking external audit findings to develop lessons learned for reviewing financial
       assistance awards.

As outlined in the remainder of our report, we believe that action to address these challenges will
enhance the overall management of the Solid-State Lighting Program.

                                         Lessons Learned

If the Department proactively alerts recipients at the time of award to their responsibilities to
segregate and separately account for costs then it is likely to reduce the incidence of unallowable
costs being incurred under cooperative agreements. Specifically, our review of accounting
control and financial systems audits conducted by the Defense Contract Audit Agency (DCAA)
identified a number of weaknesses at various Solid-State Lighting Program recipients. In
particular, we noted that issues existed relating to development and implementation of policies
and procedures for the segregation and separate accounting of cooperative agreement costs. For
example, of the four recipients reviewed:

   •   None had developed adequate policies, procedures and practices for appropriately
       segregating and accumulating direct and indirect costs. Specifically, each of the
       recipients lacked the ability to correctly identify direct and indirect costs, which increased
       the risk that indirect costs could be double-billed.

   •   None had developed adequate policies and procedures for identifying and segregating
       unallowable costs, which increased the risk that such costs could be inappropriately billed
       to the financial assistance award. In fact, one of the DCAA audits identified unallowable
       costs that were billed and reimbursed to the recipient such as costs incurred prior to the
       award and sales tax.

   •   None had developed and implemented adequate timekeeping policies and procedures.
       Timekeeping policies and procedures are critical to ensuring that costs are properly
       allocated to Federal financial assistance awards. This is especially important for the
       Solid-State Lighting Program because the majority of costs are related to labor activities.

   •   Three had not required supervisory approval for submitted timecards.

Additionally, we noted that annual internal controls and compliance audits conducted by
independent public accounting firms as required by the Department identified accounting and
financial system weaknesses at two of six Solid-State Lighting Program cooperative agreement


                                                 2
recipients included in our sample. The two recipients incurred approximately $3 million of
questionable costs related to the allocation of labor charges, overhead costs and vendor
purchases.

We recognize that the recipients had taken corrective actions to address the DCAA identified
weaknesses and that the Department closely monitored the implementation of these actions.
However, we found that the Department had not conducted an overall comparative review of
audit findings to identify common issues among the recipients in the program. Had such a
review been completed, the Department may have been able to proactively address weaknesses
in recipients' activities. In particular, such an analysis would be useful in identifying the root
cause of non-compliance with requirements for accounting and financial systems. For example,
one of the four recipients told us that training on segregation and separate accounting for
cooperative agreement costs would have been beneficial at the outset of the award. Furthermore,
we noted that the Department's emphasis during meetings with recipients and site visits was
focused more on technical rather than financial aspects of the projects. Specifically, in
discussions with Department contract administrators and recipients, officials informed us that
they had not met with financial personnel when they conducted briefings at either the
Department or recipient locations.

                                          Path Forward

In light of the significance of the Solid-State Lighting Program, it remains important that the
Department continue to monitor actions taken by recipients to enhance financial controls and
address issues identified from external audits. In addition, we believe that implementation of our
suggestions could provide an opportunity to improve management of financial assistance awards
across the Department's programs.

SUGGESTED ACTIONS

To address the lessons learned identified in this report and improve management of the Solid-
State Lighting Program, we suggest that the Director for the Project Management Center at the
National Energy Technology Laboratory:

    1. Ensure financial assistance recipients are aware of and implementing accounting controls
       and financial system requirements; and,

    2. Track external audit findings to develop lessons learned for reviewing financial
        assistance awards.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Assistant Secretary for Energy Efficiency and Renewable Energy
    Acting Chief Financial Officer
    Chief of Staff
                                                3
                                                                                     Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Department of Energy (Department)
effectively and efficiently managed the Solid-State Lighting Program.

SCOPE

The audit was performed between April 2012 and February 2013 at the National Energy
Technology Laboratory in Pittsburgh, Pennsylvania. Additionally, we visited three financial
assistance recipients: two in Research Triangle Park, North Carolina and one in San Jose,
California. Finally, we gathered detailed documentation to conduct testing from three other
recipients in San Jose, Santa Clara and Goleta, California.

METHODOLOGY

To accomplish the audit objective we:

   •   Obtained and reviewed relevant laws and regulations related to the management of
       financial assistance awards and the implementation of the American Recovery and
       Reinvestment Act of 2009;

   •   Identified a universe of 111 cooperative agreements under the Solid State Lighting
       Program and reviewed award documentation for a judgmental sample of 14 awards;

   •   Reviewed individual cooperative agreement award files from the Department's Strategic
       Integrated Procurement Enterprise System;

   •   Reviewed independent audits of accounting control systems and recipient compliance
       with laws, regulations and award terms;

   •   Interviewed project officers, contract specialists and contracting officers regarding
       cooperative agreements made under the Department's Solid-State Lighting Program;

   •   Interviewed officials of six financial assistance recipients and analyzed financial
       transactions incurred and billed to the financial assistance award; and,

   •   Reviewed the Department's selection and award process, Solid-State Lighting Program
       planning process and the monitoring and resolution of corrective actions from
       independent audits.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for

                                                4
                                                                        Attachment 1 (continued)


our findings and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and compliance with laws and regulations necessary to satisfy the audit
objective. In particular, we assessed the Department's implementation of the
GPRAModernization Act of 2010 and found the Department had established performance
measures related to the Solid-State Lighting Program. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies that may have existed at the time
of our audit. We conducted an assessment of computer-processed data relevant to our audit
objective and found it to be reliable.

Management waived an exit conference.




                                                5
                                                                                   Attachment 2


                                     PRIOR REPORTS

Office of Inspector General

   •   Audit Report on Solar Technology Pathway Partnerships Cooperative Agreements
       (OAS-M-11-02, March 2011). This audit found that the Department of Energy's
       (Department) financial monitoring of projects under the Solar Technology Pathway
       Partnerships Program was not always adequate. Specifically, the Department had not
       ensured that recipients had independent audits of their internal control structures and
       compliance with applicable laws and regulations as required by Federal regulations.
       Furthermore, the Department had not established a process to track, collect, review and
       follow-up on required audits.




                                               6
                                                               IG Report No. OAS-RA-L-13-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
